No.

IN THE

Supreme Court of the Anited States

DORIAN JOHNSON,
Petitioner,
Vv.

CITY OF FERGUSON MISSOURI, ET AL.,
Respondents.

WORD COUNT CERTIFICATION

As required by Supreme Court Rule 33.1(h), I certify that the Petition for a
Writ of Certiorari contains 5,097 words, excluding the parts of the document that
are exempted by Supreme Court Rule 33.1(d).

I declare under the penalty of perjury that the foregoing is true and correct.

Taal J. Saloxanner

PIERCE BAINBRIDGE

BECK PRICE & HECHT LLP

601 Pennsylvania Ave., Suite 700S
Washington, DC 20004
Telephone: 202-759-6925
tjb@piercebainbridge.com

Executed on September 16, 2019.

Counsel for Petitioner
